COCKLE

2311 Douglas Street + E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga l B t ve fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
VUGO, INC.,
PETITIONER,
Vv.
CITY OF NEW YORK,
RESPONDENT.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of December, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:

Chad A. Snyder Jeffrey M. Schwab
RUBRIC LEGAL LLC Counsel of Record
111 Third Avenue South Brian Kelsey
Suite 110 Reilly Stephens
Minneapolis, MN 55401 LIBERTY JUSTICE CENTER
612.465.0074 190 LaSalle St., Ste. 1500
chad@rubriclegal.com Chicago, IL 60603

(312) 263-7668

jschwab@libertyjusticecenter.org

Counsel for Petitioners

Subscribed and sworn to before me this 18th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
i ballet he Ohh
State of Nebraska . ,

My Commission Expires Nov 24, 2020
Notary Public Affiant 39184

 
SERVICE LIST

Attomeys for the City of New York:

Richard Paul Dearing, Esq.
Assistant Corporation Counsel
Kathy Chang Park, Esq.
Assistant Corporation Counsel
Claude S. Platton, Esq.
Assistant Corporation Counsel
New York City Law Department
100 Church Street
New York, NY 10007
212-356-2500
rdearing@law.nyc.gov
kpark@law.nyc.gov
cplatton@law.nyc.gov
